     COMMODITY FUTURES TRADING COMMISSION


.'
        SEMIANNUAL REPORT
              OF THE




        OFFICE OF THE
     INSPECTOR GENERAL




     FOR THE PERIOD ENDING SEPTEMBER 30, 2003
                           u.s.   COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      115521 st Street, NW, Washington, DC   2058~
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                      www.cftc.gov



   Office of the
Inspector General


                                               October 30, 2003




      TO:            James E. Newsome
                     Acting Chaimlan

      FROM:          A. Roy Lavik
                     Inspector Gene¥\
                                     f't (2 ~
      SUBJECT:       Semiannual Report of the Office of the Inspector General

             Attached is the Semiruillual Report ofthe Office of the Inspector General for the period
      from April 1,2003 through September 30,2003. Tlus report is submitted to you in accordance
      with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

              I appreciate your continuing support of this office.

      Attachment
             OFFICE OF THE INSPECTOR GENERAL
          COMMODITY FUTURES TRADING COMMISSION

                               SEMIANNUAL REPORT
                               FOR THE PERIOD FROM
                    Aprill, 2003 THROUGH September 30,2003


                              TABLE OF CONTENTS

SUMMARY OF OIG ACTIVITIES [including a de~cription of significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section 5(a)(1) and (2) of the Act)]                                       1
    AUDITS                                                                                  1
    IN"VESTIGATIONS                                                                         2
    LEGISLATIVE AND REGULATORY REVIEWS                     ,                                2

OIG RESPONSffiILITIES                                                                       3

OIG RESOURCES                                                                               4

CFTC PROGRAMS AND OPERATIONS                                                                4

COMPLETED WORK.                                                                             4
    AUDITS [including a list of each audit report issued and a summary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) of the Act)]                    4
    INVESTIGATIONS                                                                          8
    LEGISLATIVE AND REGULATORY REVIEWS                                                      8

AUDIT REPORTS OVER SIX MONTHS OLD                                                           9

       CORRECTNE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)]   9
       CORRECTNE ACTION COMPLETED                                                           9
      MANAGEMENT DECISION NOT MADE [including a summary of each audit
      report issued before the commencement of the reporting period for which no management
      decision has been made by the end of the reporting period (including
      the date and title of each such report), an explanation ofthe reasons such a
      management decision has not been made, and statement concerning the desired timetable
      for achieving a management decision on each such report (Mandated by Section 5(a)(10)
      ofthe Act)]                                                                           9

SUMMARY OF MATTERS REFERRED TO PROSECUTIVE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                            9

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning infonnation or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                      .10

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(II) of the Act)]                           IO

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act)]                               10

CURRENT AUDITS                                                                             10

GAO LIAISON                                                                                13

STRATEGIC PLAN                                                                             14

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                             19

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                              20

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) ofthe Act)                                 21




                                             11
                    INDEX OF IG ACT REPORTING
                         REQUIREMENTS

Section 5(a)(I)                                  1

Section 5(a)(2)                                  1

Section 5(a)(3)                                 9

Section 5(a)(4)                                 9

Section 5(a)(5)                                 10

Section 5(a)(6)                                  4

Section 5(a)(7)                                  4

Section 5(a)(8)                                 20

Section 5(a)(9)                                 21

Section 5(a)(1 0)                                9

Section 5(a)(11)                                10

Section 5(a)(12)                                10




                                111
                       SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives of the Office of the Inspector General (OIG) of the Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-tenn efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud,
waste, and abuse. This reporting period's OIG audit activities, which are listed below, reflect
these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 10.)

       Review ofAgency Compliance with GPRA. The Government Perfonnance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual
       plans setting perfonnance goals, and report annually on actual perfonnance compared to
       goals. The first report was prepared in March 2000. The objective of this review is to
       determine how effectively the Commission is complying with GPRA's tenns. This will
       include an examination of the perfonnance measures devised by the Commission and the
       systems used for gathering the data to report on those performance measures. (For
       additional details, see page 11.)

       Audit of CFTC Financial Statements. In FY 2002, Congress passed the Accountability of
       Tax Dollars Act. The Act requires the CFTC, along with numerous other Federal
       entities, to have its financial statements audited annually. To this end, the objective of
       this audit is to acquire a contractor who will provide the audit effort required to enable
       the contractor to render an opinion on the agency's financial statements for fiscal year
       2004 in accordance with generally accepted auditing standards, Government Auditing
       Standards, and OMB Bulletin 01-02. (For additional details, see page 12.)

       Audit of CFTC Time and Attendance Report Procedures. Since the bulk of CFTC's
       funds are expended on salaries, it is imperative that we insure that payments to
       employees are computed based on accurate reporting of time and attendance. The
       objective of this audit is to detennine if the procedures established to insure the accurate
       completion of time and attendance reports are adequate and are being carried out in
       accordance with instructions. (For additional details, see page 13.)




                                                 1
Completed Audits

         The following audits have been completed during this reporting period. (For additional
details, see the section on completed audits beginning on page 4.)

       Review of Employee Usage of Govemment Issued Purchase Cards. Government
       contractor issued credit cards are issued to employees for facilitating the efficient
       acquisition of small dollar amount items for the agency. The first objective of this audit
       was to ascertain compliance with existing policies for the use ofpurchase cards by
       designated employees. The second objective was to ascertain if the agency complied
       with the Prompt Payment Act. (For additional details, see page 5.)

       Evaluation of the CFTC Information Security Program and Practices. FISMA. The
       Federal Information Security Management Act (FISMA) requires the Inspector General
       or his designee to perform annual independent evaluations of the information security
       program and practices of the agency. (For additional details, see page 5.)

       Review of Enforcement Information Requirements. The objectives of this review are to
       detennine what the information needs of all levels in the Division are, whether the
       information needs are being met, and if the required information can be created, stored,
       and retrieved in a more effective and efficient manner. (For additional details, see page
       6.)


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or infonnation from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

        No investigations were pending as of the beginning of the reporting period. The OIG
opened one investigation during the reporting period and completed one investigation. No
investigations remained open at the end of the period. (See the section on investigations
beginning on page 8.)


LEGISLATIVE AND REGULATORY REVIEWS

        The OIG reviews proposed and final CFTC regulations, legislation, and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that


                                                 2
    the proposal will yield positive net benefits over the long tenn; and (6) has met the requirements
    of the Regulatory Flexibility Act and the Paperwork Reduction Act.
"

            The Regulatory Flexibility Act requires the agency to evaluate the impact of its
    reguiations on small entities. The Paperwork Reduction Act requires the agency to manage
    effectively and efficiently its infonnation collections so that they are the least burdensome
    necessary to achieve the stipulated objectives.                                             .

    Legislative Activities

          The Inspector General continues to be heavily involved in legisiative activities.
    Congressional staff were briefed about the various IG issues.



                                  OIG RESPONSIBILITIES


           The Office of the Inspector General in the Commodity Futures Trading Commission was
    created in accordance with the Inspector General Act of 1978 (P .L. 95-452), as amended by the
    Inspector General Act Amendments of 1988 (P .L. 100-504). The OIG was established to create
    an independent unit to:

            •   Promote economy, efficiency, and effectiveness in the administration of CFTC
                programs and operations and detect and prevent fraud, waste, and abuse in such
                programs and operations;

            •   Conduct and supervise audits and, where necessary, investigations relating to the
                administration of CFTC programs and operations;

            •   Review existing and proposed legislation, regulations, and exchange rules and make
                recommendations concerning their impact on the economy and efficiency of CFTC
                programs and operations or the prevention and detection of fraud and abuse; and

            •   Keep the Chainnan and Congress fully infonned about any problems or deficiencies
                in the administration of CFTC programs and operations and provide
                recommendations for correction of these problems or deficiencies.

           Given that the CFTC does not have extensive contracts or grant making authority, the
    OIG's efforts have been focused on the review of legislative and regulatory proposals and the
    monitoring of internal CFTC operations.




                                                     3
                                      OIG RESOURCES

        The OIG consists ofthe Inspector General, two professional staff members, and a
secretary. All positions have been filled since January 2, 2000. The present Inspector General
assumed his position on October 7, 1990.

        The OIG, on December 4, 1989, signed a Memorandum ofUnderstanding with the Office
of the General Counsel (OGC). This Memorandum details the procedures that are used to
provide the OIG with OGC legal services. An OGC staff member has been assigned to provide
such services to the OIG on an as-needed basis.



                  CFTC PROGRAMS AND OPERATIONS

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992, and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through fiscal year (FY) 2005 with the passage ofthe Commodity Futures
Modernization Act of 2000 (CFMA).

         The CFMA transfoffiled the Commission from a front-line regulatory agency to an
oversight regulator. Although the Commission's approach to regulation has changed, the
CFTC's mission has not. The CFTC continues to be responsible for fostering the economic
utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
integrity, and protecting market participants against manipulation, abusive trade practices, and
fraud. Through effective oversight regulation, the CFTC enables the commodity futures markets
better to serve their vital function in the nation's economy -- providing a mechanism for price
discovery and a means of offsetting price risks.



                                COMPLETED WORK

AUDITS

       The OIG is required to conduct, supervise and coordinate audits of CFTC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted
government auditing standards. The OIG is also required to recommend changes to existing and
proposed CFTC programs and operations to promote econQmy, efficiency, and effectiveness and
to prevent and detect fraud and abuse.



                                                4
          The purpose of these audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations, and
              policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit reports have been issued during the reporting period.

1.        Review of Employee Usage of Government Issued Purchase Cards

Objectives.

        Government contractor issued credit cards are issued to employees for facilitating the
efficient acquisition of small dollar amount items for the agency. The first objective of this audit
was to ascertain compliance with existing policies for the use ofpurchase cards by designated
employees. The second objective was to ascertain if the agency complied with the Prompt
Payment Act.

Status.

         In an audit report issued on September 26,2003, the OIG reported that some employees'
usage of their purchase cards failed to comply with existing policies. For example, the audit
found that one employee used his card for unauthorized purchases, and one employee failed to
retain adequate records. Also, the OIG audit found that the agency and the government
contractor issuer of purchase cards were unable to resolve disputed charges on the cards. During
the audit period of January 2002 to August 2003, these parties were unable to parse out the
disputed amount vs. the Prompt Payment Act penalties. As of June 30, 2003, this agency
liability exceeds $30,000 and is continuing to grow. This open and growing liability must be
resolved soon. All purchase cardholders did receive the necessary training before getting their
purchase cards.

2.        Evaluation of the CYrC Information Security Program and Practices, FISMA

Objectives.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.




                                                    5
Status.

        To provide a comprehensive ~eview of the Commission's security program, OIRM and
OIG jointly engaged a contractor. Using the information supplied by the contractor and the
program managers, the Inspector General responded to the areas raised by the OMB Guidance.
The evaluation covered the following systems: the General Support System, Trade Practice
Investigations System, PaYroll and Personnel Systems, ISS Market Surveillance System, IFR
Company Financial Reporting System and the Financial Management System. The Financial
Management System consists of three components entitled Financial Management System,
Travel Manager System, and Electronic Certification System.

        In addition to the independent evaluation, the Inspector General produced a summary
characterizing the results of the independent evaluation of the agency's information security
program and practices. Results of this effort were transmitted to the CFTC's Chief Information
Officer (CIO) on September 15,2003 for combination with the CIO's assessment and inclusion
in the Chairman's report to OMB on September 22,2003.

3.        Review of Enforcement Information Requirements

Objectiv:es.

        The mission of the Division of Enforcement is to investigate and prosecute fairly and
effectively violations of the Commodity Exchange Act and the Commission's regulations in
order to safeguard the integrity ofU.S. futures and options markets and to protect market
participants and futures and options customers. In the course of its activities, the Division, with
headquarters and regional components, plans and follows an often complex course to achieve its
objectives and receives and creates a huge volume of documents which must be logically stored
and regularly accessed. To support the accomplishment of these tasks, the Division is relying on
a collection ofvery old manual and automated systems to track the progress of activities and to
store and retrieve documents. The objectives of this review are to determine what the
information needs of all levels in the Division are, whether the information needs are being met,
and if the required information can be created, stored, and retrieved in a more effective and
efficient manner.

Status.

        The joint OIG/Division of Enforcement team produced extensive and detailed narrative
flow charts of the current operational and administrative functions and processes of the Division
of Enforcement and delivered them to the Division of Enforcement and the Office of Information
Resources Management (OIRM). These products were designed to inform the analysts in OlRM
of the inner workings of the Division of Enforcement and to serve as the base on which the
information requirements of the Division of Enforcement will be defined.

       In September 1997, in ajoint meeting of representatives ofthe Division of Enforcement,
the OIG, and OIRM, the principals made commitments of six staff years of effort from OIRM




                                                 6
and approximately three staff years of effort from the Division ofEnforcenient to define the
system requirements of the Division.

        The Division of Enforcement and OIRM agreed that the first priority was the
development ofa system to track documents in the Division ofEnforcement in accordance with
the Division's Enforcement Procedure Number 3. The second phase was devoted to installing a
system to track production within the Division and to report that information in the required
formats to management ofthe Division. Phase three will concentrate on moving the functions of
the attorneys and investigators from paper to computer screen and using the resulting
information to improve the tracking ofproductivity information and the sharing ofinformation
within the Division.

       The fmal version of the first phase ofwhat was being called "the Enforcement
Modernization Project" was delivered to the Division of Enforcement in May 1998. This
Enforcement Procedure Number 3 System is now being used at all locations of the Division.
The second phase, a system which produces the monthly status reports from all parts ofthe
Division and maintains on-screen data on the current status of all matters within the Division, has
been completed. Training in the use of this system was completed during March 1999.

         Phase Three, designed to present the Division of Enforcement with a case management,
litigation support, and document management system, to tie together the first two systems with
this new system, and to automate as many of the remaining Enforcement Division processes as
possible, began with a survey of appropriate off-the-shelf systems and an investigation of
currently available software and hardware which may meet the bulk of identified needs.
Difficulties in maintaining contractor resource levels led to delays in the pursuit ofPhase 3. A
team consisting of staff from the Division of Enforcement, OIRM, and contractor personnel was
engaged in a review of available off-the-shelf case management, litigation support, and
document management software from the beginning of Calendar Year 2000.

   As a result of this review of available off-the-shelf software, the Division ofEnforcement
and OIRM developed a list of requirements. A Request for Proposals reflecting those
requirements was issued on July 19,2000. None of the responses received fully met the
requirements specified in the Request for Proposals.

    In FY 2001, the agency's Executive Management Council (EMC) formed an Integrated
Project Team (IPT) to define the systems requirements of the Division of Enforcement, examine
alternative methods for meeting the requirements and recommend a solution. The solution,
defined by the IPT and known as the eLaw project, assumed the availability of$3.7 million to
fund the purchase and maintenance of all elements of the proposed solution over a number of
fiscal years.

    A total of$1.15 million ofFY 2001 money was set aside for the implementation of the eLaw
project defined by the IPT. Congress added $2.6 million to the eLaw project to insure the
availability ofDivision of Enforcement records in the event of a repeat of the September 11,
2001 terrorist attack. With the full $3.7 million now available for implementation, the agency




                                                 7
expects to move forward expeditiously with the purchase of all of the elements ofthe eLaw
system.

   A Request for Quote (RFQ) was issued on May 7, 2003 and resulted in the award on
September 9, 2003 of a GSA Blanket Purchase Agreement to the winning bidder. This
contractual agreement allows the Commission to issue/award individual tasks for support as the
project progresses. The first task will include the requirements analysis phase of the project. A
kick-offmeeting for this first task order was held on September 16,2003.



INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

        No investigations were pending as of the beginning of the reporting period. The OIG
opened one investigation during the reporting period and completed one investigation. No
investigations remained open at the end ofthe period.

        In response to several unsolicited complaints from CFTC employees regarding
disatisfaction with service rendered by employees of the Procurement/Contracting Office ofthe
Office of Financial Management, the OIG opened an investigation. A large sample ofCFTC
employees who had had dealings with the Procurement/Contracting Office were interviewed to
determine the quality of service being provided. The OIG's findings were that dissatisfaction
with the service being provided was a distinct minority view. The vast majority ofthose
interviewed indicated that they were pleased and satisfied with the efforts of the procurement and
contracting staft: Accordingly, this investigation was closed.


LEGISLATIVE AND REGULATORY REVIEWS

        As specified in Section 4(a) (2) of the Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The OIG also reviews exchange rule proposals and changes.

      The OIG has notified the responsible Divisions as to any concerns with draft and final
documents for the legislation, rules or investigations. Formal comments were not filed with the
Commission.




                                                 8
      RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS
,-.
              There were no rule reviews initiated in previous reporting periods which were continued
      into this reporting period.

      RULE REVIEWS INITIATED THIS REPORTING PERIOD


              The GIG has reviewed the numerous rules required by the CFMA. The CFMA altered
      the relationship of the Commission to the futures industry in many regards and the rules sought
      to reflect this change.

      Legislative Activities

            The Inspector General continues to be involved in legislative activities and contact has
      been made with congressional staff on various IG issues.



                     AUDIT REPORTS OVER SIX MONTHS OLD


      CORRECTIVE ACTION NOT COMPLETED
             There were no instances of audit reports over six months old where corrective action had
      not been completed.

      CORRECTIVE ACTION COMPLETED
              There were no instances of reports issued before the commencement of the reporting
      period for which corrective action had been completed by the end of the reporting period.

      MANAGEMENT DECISION NOT MADE

              There were no instances of reports issued before the commencement of the reporting
      period for which a management decision had not been made by the end of the reporting period.



                      SUMMARY OF MATTERS REFERRED TO
                         PROSECUTIVE AUTHORITIES

             No matters were referred to prosecutive authorities during the reporting period




                                                      9
                   SUMMARY OF EACH REPORT MADE TO
                         THE AGENCY HEAD

        No reports were made to the agency head under section 6(b)(2) concerning infonnation
or assistance unreasonably refused or not provided.



                      REVISED MANAGEMENT DECISIONS

           No management decisions were revised during the reporting period.



                    INSPECTOR GENERAL DISAGREEMENT

      The Inspector General does not disagree with any management decisions on OIG
recommendations.



                                      CURRENT AUDITS

           The audit agenda and priorities for the OIG are detennined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by OMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability of the organization,
               program, activity, or function to problems or deficiencies;

           •   Current and potential dollar magnitude and likely benefits of a review on the
               efficiency or effectiveness of CFTC programs and operations;

           •   Management priorities and improvements that may be possible;

           •   Results of audits of CFTC programs and operations by other Federal agencies; and

           •   Availability of audit resources and the potential opportunity costs to the agency.



                                                    10
           The audit agenda and summary ofprogress for each audit, which has not yet been
"   completed, is summarized below. New agenda items periodically will be added, as appropriate,
    along with a description of the audit objective for each.

    1.        Review of Agency Compliance with GPRA

    Objective.

            The Government Performance and Results Act of 1993 requires federal agencies to
    develop strategic plans, prepare annual plans setting performance goals, and report annually on
    actual performance compared to goals. The first report was prepared in March 2000. The
    objective of this review is to determine how effectively the Commission is complying with
    GPRA's terms. This will include an examination of the perfonnance measures devised by the
    Commission and the systems used for gathering the data to report on those performance
    measures.

    Status.

            In response to Congressional interest, the OIG consulted with and advised the
    Commission's operating divisions conc~rning GPRA requirements. The Office of the Inspector
    General reviewed the Commission's FY 2001, FY 2002 and FY 2003 Annual Perfonnance Plan
    before each was submitted to Congress. Subsequently, the OIG selectively reviewed the FY
    1999, FY 2000 and FY 2001 Annual Performance Reports after they were submitted to
    Congress. The OIG concluded that the agency had made improvements in defining its goals and
    identifying measures for reaching its stated goals.

           The CFMA, which was enacted in fiscal year 2001, fundamentally changed the
    regulatory structure for the commodity futures markets. The Commission adopted new rules and
    procedures consistent with the regulatory reforms presented in that Act. This wholesale change
    in approach challenged each operating division to redefine its service goals under GRPA. The
    agency implemented a reorganization that allows the Commission to more effectively respond to
    the new Act.

            The OIG participated in a number of discussions on how to best reflect the agency's new
    regulatory paradigm in structuring future goals and measures under GPRA. In conjunction with
    other federal agencies' Inspectors General, the OIG is participating in the development ofbest
    practices for measuring compliance with the requirements of GPRA. The OIG is reviewing the
    goals and objectives prepared by senior managers for adherence to the requirements of GPRA.
    After this review, the OIG will verify and validate a subset of the data submitted in the GPRA
    report.




                                                    11
2.     Audit of CFfC Financial Statements

Objective.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the objective of this audit is to acquire a contractor who will provide the
audit effort required to enable the contractor to render an opinion on the agency's financial
statements for fiscal year 2004 in accordance with generally accepted auditing standards,
Government Auditing Standards, and OMB Bulletin 01-02.

The specific objectives of this audit are to detennine whether:

       (1) the financial statements present fairly the fmancial position of the Commodity Futures
       Trading Commission in accordance with generally accepted accounting principles
       (GAAP) as promulgated by the Federal Accounting Standards Advisory Board (FASAB).
       The six financial statements, along with all corresponding notes to be audited include: (a)
       Balance Sheet; (b) Statement of Net Cost; (c) Statement of Changes in Net Position; (d)
       Statement of Budgetary Resources; (e) Statement of Financing; and (t) Statement of
       Custodial Activity.

       (2) management's assertions about the effectiveness of its internal controls for achieving
       internal control objectives described in AU Section 319 and the Federal Managers
       Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
       shall make this detennination in part by obtaining an understanding of the internal control
       policies and procedures and assessing the level of control risk relevant to all significant
       cycles, classes of transactions, and account balances. For those significant control
       policies and procedures that have been properly designed and placed in operation, the
       contractor shall perfonn sufficient tests to provide reasonable assurance as to whether the
       controls are effective and working as designed.

       The independent public accountant (IPA) will limit its internal control testing to those
       controls necessary to achieve the objectives described in OMB Bulletin No. 01-02.
       Further, the IPA is not required to test all internal controls relevant to operating
       objectives as broadly defined by the Federal Manager's Financial Integrity Act of 1982,
       such as those controls relevant to achieving efficient operations.

       With respect to internal controls related to perfonnance measures reported in the
       accountability report, the IPA will obtain an understanding of the design of significant
       internal controls relating to the existence and completeness assertions, as required by
       OMB Bulletin No. 01-02. The procedures are not required to provide assurance on
       internal controls over reported perfonnance measures.

        (3) the agency has complied with selected provisions of laws and regulations identified
        by OMB Bulletin No. 01-02 or the Inspector General, noncompliance with which could
        have a direct and material effect on the detennination of financial statement amounts.



                                                 12
          The IPA will limit its tests of compliance to these provisions and need not test
          compliance with all laws and regulations applicable to the CFTC.

          (4) the information in the "Overview of the Reporting Entity" is consistent in content and
          presentation with the information in the principal statements and the related notes
          consistent with SAS No.8, Other Information in Documents Containing Audited
          Financial Statements.

Status.

        A Request for Quote was issued on July 14, 2003. By the closing date of August 14,
2003, four firms had submitted proposals. The Technical Evaluation Committee is currently
evaluating the proposals of the responding independent public accounting firms. An independent
public accounting firm is expected to be selected during the fITst quarter ofFY 2004.

3.        Audit of eYre Time and Attendance Report Procedures

Objective.

        Since the bulk ofCFTC's funds are expended on salaries, it is imperative that we insure
that payments to employees are computed based on accurate reporting of time and attendance.
The objective ofthis audit is to determine if the procedures established to insure the accurate
completion of time and attendance reports are adequate and are being carried out in accordance
with instructions.

Status.

        The OIG has interviewed some CFTC employees who are aware of some problems with
implementation of time and attendance report procedures in the past. The OIG intends to
interview the coordinator of the program and to select a particular organization to serve as a
sample.



                                         GAO LIAISON

        The OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each audit
and the methods of reaching the goals so as to minimize the requirements placed on CFTC         .
resources.


                                                   13
                         STRATEGIC PLAN
                             FOR THE
                 OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

        The Office of the Inspector General (GIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (p.L. 95-
452), as amended by the Inspector General Act Amendments of 1988 (p.L. 100-504). The OIG
was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction ofthese problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.

AUDIT

        The primary objectives of the GIG are to promote long-term efficiency and effectiveness
in the administration and operation of the Commission and to protect against fraud and abuse.

        The key to effectively and efficiently managing the CFTC is information. Top level
managers and decision makers require a steady stream of organized data on the effects of their
policy decisions and resource allocations on the operations of the Commission. Once having
made the decision to change resource levels or policy, managers must receive accurate and
timely reports ofthe operational effects of their decision so they can determine if the change is in
the direction and of the magnitude predicted. In the absence of such information, top level
managers cannot adequately perform their jobs.




                                                 14
        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an DIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office of Proceedings; appeals ofinitial decisions in
reparations cases are transmitted to the Office of the General Counsel where proposed
Commission opinions are drafted; and appeals are decided by the Commission with the
paperwork being handled by the Office of the Secretariat. Each office involved in the process
had a separate tracking system without ties to the tracking systems in the offices preceding them'
or following them in the process. Each office treated the case as if it were brand new to the
Commission when they received it. As a result, there was no provision for tracking information
across organizational lines. Ifthe Chairman wanted to know how much time was spent on the
average reparations case of a particular description at each stage in the process, that information
was unavailable without an extensive expenditure ofmanual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking
resources expended. It can determine how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that, for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

       To increase the efficiency and the effectiveness of the management ofCFTC programs
and operations, the OIG will, in addition to conducting mandatory audits, concentrate its audit
resources on the identification of information voids and the lack of continuity in the flow of
information across organizational lines from the beginning of a process until its conclusion. The
OIG will recommend the implementation of any system improvements where the benefits of
implementing the change exceed the costs.

        In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the OIG has been following the Commission's development of measures and
systems of measurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to monitoring
agency performance to insure that the data is accurately gathered and that the measures reported
are the best available for demonstrating program performance.

INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning



                                                 15
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
OIG believed that an independent regulatory agency such as the CFTC without grant money or
substantial contracts to award was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized in the
agency-wide telephone book and in this semiannual report.

       Because ofthe reactive nature of the OIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance of this activity in an economic r~gulatory agency, the OIG
reviews proposed and final CFTC regulations, legislation, and selected exchange rules using five
basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be addressed
by the proposal; (2) has defined through case study or data anaiysis a clear link between the
proposed solution and the identified problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness ofaltemative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the OIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                16
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audit is performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support ofOMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

OTHER AUDITS

        The OIG intends to focus the balance of its audit resources on insuring that the Chairman,
the Commissioners, and program managers have timely, useful information on the progress of
the CFTC's programs in meeting their goals and objectives. For example, emphasis will be
placed on determining whether all managerial levels engaged in a process can track the progress
of their various programs. The tracking systems required in many, though not all, programs will
cross formal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by an organization to gather information on its use of resources, the results of the
devotion of those resources (including definitions ofmeasurements of accomplishment), and the
reporting of results and associated costs to the upper level managers in the Division and to the
Chairman and the Commissioners. The cataloging of these decision support systems will be
followed by an assessment ofwhether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish the
priorities of the Commission. If any elements are lacking in the information systems, they will
be identified and improvements will be recommended if they can be implemented in a
costlbeneficial manner.

        If recommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the OIG will devote resources to the audit of compliance
with the terms of agency contracts (such as, leases of space in New York, Chicago, and
Washington, D.C.), the collection of funds (such as, compliance with the terms ofthe Debt
Collection Improvement Act of 1996 and the resultant Memorandum of Understanding with



                                                17
Treasury), and agency compliance with Congressional mandates (such as, the Government
Performance and Results Act and the Government Information Security Reform Act).

RESOURCES REQUIRED

        The OIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. Nine-tenths of a staff year of effort will be devoted over each of the next five years to
the compliance audits described above. The "Annual Audits" are expected to consume
approximately one-tenth staff year per year.




                                                 18
                       CONTACTING THE OFFICE OF THE
                           INSPECTOR GENERAL


        The OIG is located at 1155 21 st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                              19
                                              Table 1
                                 Reports Issued with Questioned Costs
                                 (Aprill, 2003 - September 30, 2003)


                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
C.   For which a management decision was
     made during the reporting period                   o               o        o
     (I)      dollar value of
              disallowed costs                          o               o        o
     (ii)     dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                               20
       . 1'----                                    T_a_b_le_2                    _

                                  Reports Issued with Recommendations
                                     That Funds be Put to Better Use
                                   (Aprill, 2003 - September 30, 2003)


                                                                  Dollar Value
                                                         Number    Thousands

 A.       For which no management decision has
          been made by the commencement of the
          reporting period                                  o            o
. B.      Which were issued during the reporting
          period                                            o            o
          Subtotals (A + B)                                 o            o
  c.      For which a management ~ecision was
          made during the reporting period                  o            o
          (i)      dollar value of
                   recommendations that
                   were agreed to by management
                                                            o            o
          (ii)     dollar value of
                   recommendations that
                   were not agreed to by
                   management                               o            o
  D.      For which no management decision
          has been made by the end of the
          reporting period                                  o            o




                                                   21
        The Inspector General
        needs your help to
        assure the integrity of
        CFTC's programs.



Report FRAUD, WASTE
or ABUSE to the
INSPECTOR GENERAL

HOTLINE
(202)418-5510
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21ST Street, N.W.
        Washington, D.C. 20581
                                        r,
